No. 19-___

 

 

In THE
Supreme Court of the United States

PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,

Vv.

STATE OF WASHINGTON,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Washington

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,641 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 7, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
